Audit Report




OIG-08-004
FINANCIAL MANAGEMENT:
Report on the Bureau of the Public Debt Trust Fund Management
Branch Schedules for Selected Trust Funds as of and for the
Year Ended September 30, 2007
November 5, 2007




Office of
Inspector General
Department of the Treasury
                                         DEPARTMENT OF THE TREASURY
                                               W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NER AL
                                                 November 5, 2007


             MEMORANDUM FOR VAN ZECK, COMMISSIONER
                            BUREAU OF THE PUBLIC DEBT

             FROM:                    Michael Fitzgerald /s/
                                      Director, Financial Audits

             SUBJECT:                 Report on the Bureau of the Public Debt
                                      Trust Fund Management Branch Schedules for
                                      Selected Trust Funds as of and for the
                                      Year Ended September 30, 2007


             I am pleased to transmit the attached Report on the Bureau of the Public Debt Trust
             Fund Management Branch (TFMB) Schedule of Assets and Liabilities and the related
             Schedule of Activity of Selected Trust Funds as of and for the year ended
             September 30, 2007 (the Schedules). Under a contract monitored by the Office of
             Inspector General, KPMG LLP, an independent certified public accounting firm,
             performed an examination of TFMB’s assertions pertaining to the Schedules as of
             and for the year ended September 30, 2007. These Schedules relate solely to the
             functions performed by TFMB as custodian of the following Trust Funds’ monies and
             investments:

                      •   Federal Supplementary Medical Insurance Trust Fund,
                      •   Federal Hospital Insurance Trust Fund,
                      •   Highway Trust Fund,
                      •   Airport and Airway Trust Fund,
                      •   Hazardous Substance Superfund Trust Fund,
                      •   Leaking Underground Storage Tank Trust Fund,
                      •   Oil Spill Liability Trust Fund,
                      •   Harbor Maintenance Trust Fund,
                      •   Inland Waterways Trust Fund, and
                      •   South Dakota Terrestrial Wildlife Habitat Restoration
                          Trust Fund

             The contract required that the examination be performed in accordance with
             generally accepted government auditing standards and the attestation standards
             established by the American Institute of Certified Public Accountants.
Page 2


In its examination of TFMB’s assertions pertaining to the Schedules, KPMG LLP,
found TFMB’s assertions (which are included in the Independent Auditors’ Report on
Management’s Assertions) pertaining to the Schedules are fairly stated, in all
material respects, based on the measurement and disclosure criteria set forth in
note 1 to the Schedules.

In connection with the contract, we reviewed KPMG LLP’s report and related
documentation and inquired of its representatives. Our review, as differentiated from
an examination of assertions in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on TFMB’s assertions. KPMG LLP is responsible for the attached
auditors’ report dated November 2, 2007 and the conclusions expressed in the
report. However, our review disclosed no instances where KPMG LLP did not
comply, in all material respects, with generally accepted government auditing
standards.

Should you have any questions, please contact me at (202) 927-5789, or a member
of your staff may contact Mark S. Levitt, Audit Manager, Financial Audits at
(202) 927-5076.

Attachment

cc:   Kenneth E. Carfine
      Fiscal Assistant Secretary
            U. S. DEPARTMENT OF THE TREASURY 

BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH 


            Schedules and Notes for Selected Trust Funds 


           As of and for the Year Ended September 30, 2007

                         U.S. DEPARTMENT OF THE TREASURY 

             BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH 



                                              Table of Contents



                                                                        Page

I     Independent Auditors’ Report on Management’s Assertions             1

II    Schedule of Assets and Liabilities of Selected Trust Funds          4

III   Schedule of Activity of Selected Trust Funds                        7

IV    Notes to the Schedules of Selected Trust Funds                     10
I.   INDEPENDENT AUDITORS’ REPORT ON
        MANAGEMENT’S ASSERTIONS
                              KPMG LLP
                              2001 M Street, NW
                              Washington, DC 20036




                     Independent Auditors’ Report on Management’s Assertions


Inspector General, U.S. Department of the Treasury, and
Commissioner, Bureau of the Public Debt:

We have examined the following assertions of the Trust Fund Management Branch (TFMB) of the Bureau
of the Public Debt (BPD) of the U.S. Department of the Treasury (Treasury) with respect to the applicable
accounts of each trust fund included on the accompanying Schedule of Assets and Liabilities of Selected
Trust Funds as of September 30, 2007 and the related Schedule of Activity of Selected Trust Funds for the
year then ended:

•	 Fund balance with Treasury is reported based on the balance reported by Treasury’s Financial
   Management Service (FMS) in the Government-wide Accounting and Reporting Modernization Project
   (GWA) Account Statement and reconciling transactions identified and recorded by TFMB.

•	 Interest receivables are calculated and reported by TFMB based on the investment terms received and
   recorded by TFMB from BPD’s Federal Investments Branch (FIB) in the investment confirmations and
   monthly statements of account.

•	 Other receivables and other payables are reported based on amounts received and recorded by TFMB
   from the program agencies responsible for the respective trust fund activity.

•	 Investments, net are calculated and reported at net cost based on the cost and premium/discount
   amounts reported to TFMB in the investment confirmations and monthly statements of account
   received from FIB.

•	 The market value of investments is calculated and reported by TFMB using the recorded investment
   cost and the market rates published in the September 28, 2007 Treasury Quote file and unrealized gains
   and losses are calculated and reported by TFMB as the difference between the market value and the
   investments, net.

•	 Program agency equity is calculated and reported by TFMB based on the assets of the trust fund.

•	 Available program agency equity is reported based on amounts received and recorded by TFMB from
   the program agencies responsible for the respective trust fund activity.

•	 Other program agency equity is calculated and reported by TFMB as the difference between the assets
   of the trust fund and the available program agency equity received and recorded by TFMB from the
   program agencies responsible for the respective trust fund activity.




                               KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                               a member of KPMG International, a Swiss cooperative.
•   Interest revenue is reported based on the amounts received and recorded by TFMB from FIB in the
    monthly statements of account and accrued interest and amortization calculated by TFMB.
    Amortization of any premiums and discounts on investments is calculated and reported by TFMB
    based on the investment terms reported to TFMB by FIB using the straight-line method for investments
    with a term equal to or less than one year and using the level yield method which approximates the
    interest method for investments with a term of greater than one year.

•   Penalties, fines, administrative fees, transfers in from program agencies, premiums, cost recoveries,
    and other income are reported based on the amounts received and recorded by TFMB from FMS and
    the program agencies responsible for the respective trust fund activity.

•   Tax revenues, tax adjustments, tax refunds, and other income – tax revenue transfers are reported based
    on the amounts received and recorded by TFMB from the Office of Tax Analysis, Internal Revenue
    Service and/or FMS.

•   Transfers to program agencies and other transfers are calculated and reported based on the
    disbursement request amounts received and recorded by TFMB from the program agencies responsible
    for the respective trust fund activity and the disbursement amounts returned and recorded by TFMB
    from the program agencies responsible for the respective trust fund activity.

•   Reimbursements to Treasury bureaus and the General Fund are reported based on the disbursement
    request amounts received and recorded by TFMB from various Treasury bureaus, including BPD and
    FMS.

TFMB’s management is responsible for the assertions. Our responsibility is to express an opinion on these
assertions based on our examination. Our examination was conducted in accordance with attestation
standards established by the American Institute of Certified Public Accountants (AICPA) and the standards
applicable to attestation engagements contained in Government Auditing Standards issued by the
Comptroller General of the United States and, accordingly, included examining on a test basis, evidence
supporting the assertions stated above and performing such other procedures as we considered necessary in
the circumstances. We believe that our examination provides a reasonable basis for our opinion.

In our opinion, TFMB’s assertions referred to above relating to the applicable accounts of each trust fund
reported on the accompanying Schedule of Assets and Liabilities of Selected Trust Funds as of
September 30, 2007, and the related Schedule of Activity of Selected Trust Funds for the year then ended,
are fairly stated, in all material respects based on the measurement and disclosure criteria set forth in note 1
to the schedules of selected trust funds.

This report is intended solely for the information and use of the management of BPD, program agencies
responsible for their respective trust fund activity, the U.S. Department of the Treasury Office of Inspector
General, the Office of Management and Budget, the Government Accountability Office, and the U. S.
Congress, and is not intended to be and should not be used by anyone other than these specified parties.




November 2, 2007




                                                       2
II. SCHEDULE OF ASSETS AND LIABILITIES OF
           SELECTED TRUST FUNDS
                                               U.S. DEPARTMENT OF THE TREASURY

                                   BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH

                                              Schedule of Assets and Liabilities of Selected Trust Funds
                                                              As of September 30, 2007


                                           Federal
                                        Supplementary            Federal                                                   Hazardous
                                           Medical               Hospital                                    Airport        Substance
                                          Insurance             Insurance                Highway           and Airway       Superfund
Assets:                                  Trust Fund            Trust Fund              Trust Fund          Trust Fund      Trust Fund
  Fund balance with Treasury        $      145,462,209             7,726,830           2,546,784,489         715,577,951       1,538,456
  Interest receivables                     479,930,214         4,090,118,187                      —           75,831,267      12,794,749
  Other receivables                      8,483,565,673           484,100,000                      —                   —               —
  Investments, net                      39,248,013,000       319,377,370,000          12,204,544,000       7,930,943,000   2,739,055,243
       Total assets                     48,356,971,096       323,959,315,017          14,751,328,489       8,722,352,218   2,753,388,448

Liabilities:
  Other payables                                   —            8,483,565,673                      —                 —               —
  Program agency equity:
     Available                          24,235,760,468        20,892,422,161          14,751,328,489       2,855,239,220   2,466,811,552
     Other                              24,121,210,628       294,583,327,183                      —        5,867,112,998     286,576,896
     Total program agency equity        48,356,971,096       315,475,749,344          14,751,328,489       8,722,352,218   2,753,388,448
       Total liabilities            $   48,356,971,096       323,959,315,017          14,751,328,489       8,722,352,218   2,753,388,448




                                                                          4                                                     (Continued)
                                            U.S. DEPARTMENT OF THE TREASURY

                                BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH

                                             Schedule of Assets and Liabilities of Selected Trust Funds
                                                             As of September 30, 2007

                                                                                                                          South Dakota 

                                           Leaking
                                                                        Terrestrial

                                        Underground
                 Oil Spill          Harbor              Inland
      Wildlife Habitat

                                        Storage Tank
               Liability         Maintenance         Waterways
       Restoration

Assets:                                  Trust Fund
               Trust Fund         Trust Fund          Trust Fund
      Trust Fund

  Fund balance with Treasury        $      12,856,000                20,663,000          80,902,812          5,258,000               —
  Interest receivables                     30,464,417                 4,371,337          22,967,291             28,648        1,011,698
  Other receivables                                —                          —                  —                  —                —
  Investments, net                      2,970,749,197               917,666,072       3,707,768,394        204,096,354      102,480,841
        Total assets                     3,014,069,614             942,700,409          3,811,638,497     209,383,002       103,492,539


Liabilities:
  Other payables                                    —                       —                     —                —                 —
  Program agency equity:

     Available
                             80,252,080             113,436,519                     —       71,718,879                —
     Other
                              2,933,817,534             829,263,890          3,811,638,497     137,664,123       103,492,539
     Total program agency equity         3,014,069,614             942,700,409          3,811,638,497     209,383,002       103,492,539
        Total liabilities           $    3,014,069,614             942,700,409          3,811,638,497     209,383,002       103,492,539


See accompanying notes to the schedules of selected trust funds.




                                                                             5

III. SCHEDULE OF ACTIVITY OF
      SELECTED TRUST FUNDS
                                                   U.S. DEPARTMENT OF THE TREASURY

                                       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH

                                                       Schedule of Activity of Selected Trust Funds
                                                         For the Year Ended September 30, 2007


                                                  Federal
                                               Supplementary              Federal                                                Hazardous
                                                  Medical                 Hospital                                Airport        Substance
                                                 Insurance               Insurance              Highway         and Airway       Superfund
                                                Trust Fund              Trust Fund             Trust Fund       Trust Fund       Trust Fund
Revenues:
  Interest revenue                         $     2,083,809,436         16,285,436,405             2,385,732      473,308,653      141,406,687
  Penalties, fines, and
     administrative fees                                    —             425,170,357            16,868,607                —         1,062,750
  Transfers in from program agencies           179,179,538,913         11,852,215,232                    —                 —     1,040,370,865
  Tax revenues and adjustments                              —         187,991,709,870        40,385,077,388    11,534,814,612        2,601,882
  Tax refunds                                               —                      —         (1,040,135,668)      (67,229,332)              —
  Premiums                                      54,414,948,264          2,835,677,697                    —                 —                —
  Cost recoveries                                           —                      —                     —                 —       234,049,916
  Other income                                      16,045,235              3,750,844            10,361,561                —                —
  Other income - tax revenue transfers                      —                      —           (223,307,280)      223,307,280               —
             Total revenues                    235,694,341,848        219,393,960,405        39,151,250,340    12,164,201,213    1,419,492,100
Disposition of revenues:
  Transfers to program agencies                229,348,428,686        201,881,821,770        37,787,933,729    12,054,845,807    1,294,380,409
  Other transfers                               (8,483,565,673)         8,483,565,673                    —                 —                —
  Reimbursements to Treasury bureaus
     and the General Fund                              157,684            134,971,975                   —                 —                —
              Total disposition of
                 revenues                      220,865,020,697        210,500,359,418        37,787,933,729    12,054,845,807    1,294,380,409
             Net increase/(decrease)
               in program agency
               equity                      $    14,829,321,151          8,893,600,987         1,363,316,611      109,355,406      125,111,691




                                                                             7                                                         (Continued)
                                                 U.S. DEPARTMENT OF THE TREASURY

                                     BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH

                                                         Schedule of Activity of Selected Trust Funds

                                                           For the Year Ended September 30, 2007



                                                                                                                                 South Dakota
                                                       Leaking                                                                    Terrestrial
                                                    Underground             Oil Spill             Harbor           Inland       Wildlife Habitat
                                                    Storage Tank            Liability            Maintenance     Waterways        Restoration
                                                     Trust Fund            Trust Fund            Trust Fund      Trust Fund       Trust Fund
Revenues:
  Interest revenue                              $     117,579,298             30,545,729           154,032,570    10,381,331         4,153,756
  Penalties, fines, and
     administrative fees                                       —              6,856,307                     —             —                 —
  Transfers in from program agencies                           —                     —                      —             —                 —
  Tax revenues and adjustments                        228,257,000           452,372,000          1,261,731,132    91,097,000                —
  Tax refunds                                          (2,063,000)                   —                      —             —                 —
  Premiums                                                     —                     —                      —             —                 —
  Cost recoveries                                              —             16,117,287                     —             —                 —
  Other income                                                 —                     —                      —             —         10,000,000
  Other income - tax revenue transfers                         —                     —                      —             —                 —
              Total revenues                          343,773,298           505,891,323          1,415,763,702   101,478,331        14,153,756
Disposition of revenues:
  Transfers to program agencies                         80,200,000          167,540,888            909,873,962   159,767,055               —
  Other transfers                                               —                    —                      —             —                —
  Reimbursements to Treasury bureaus
     and the General Fund                                          —               50,425                  —             —                 —
              Total disposition of
                revenues                                80,200,000          167,591,313            909,873,962   159,767,055               —
              Net increase/(decrease)
                in program agency
                equity                          $     263,573,298           338,300,010            505,889,740   (58,288,724)       14,153,756


See accompanying notes to the schedules of selected trust funds.




                                                                               8
IV. NOTES TO THE SCHEDULES OF
      SELECTED TRUST FUNDS
                            U.S. DEPARTMENT OF THE TREASURY
             BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                   Notes to the Schedules of Selected Trust Funds
                                                September 30, 2007



(1)   Summary of Significant Accounting Policies
      (a)   Reporting Entity
            The accompanying Schedule of Assets and Liabilities of Selected Trust Funds and related Schedule
            of Activity of Selected Trust Funds (Schedules) pertain to the aspects of certain Treasury-managed
            Trust Funds that are serviced by the Trust Fund Management Branch (TFMB) of the Bureau of the
            Public Debt (BPD) of the U.S. Department of the Treasury (Treasury). The Trust Funds were created
            by legislation enacted by the U.S. Congress.

            TFMB acts as a service organization which processes receipts, disbursements, and transfers related
            to the trust funds based upon information received and recorded by TFMB from the Internal Revenue
            Service (IRS) and the Office of Tax Analysis (OTA), the program agencies responsible for their trust
            fund activity, Treasury’s Financial Management Service (FMS), and other Treasury bureaus. As part
            of its functions, BPD also manages the investments, maintains related accounting records and
            supporting documentation, and reports financial activity. The financial activity reported in these
            Schedules is limited to the activities performed by TFMB.

            The program agencies are responsible for administering, regulating, and monitoring the program
            activities funded by the trust funds. The program agencies make all decisions regarding dispositions
            from the trust funds. As such, these Schedules do not include information regarding the ultimate
            disposition of amounts transferred from the trust funds to the program agencies.

      (b)   Basis of Presentation
            The Schedules have been prepared to report the assets and liabilities of the trust funds under the
            function performed by TFMB, and the related activity, in accordance with the measurement and
            criteria discussed below.

      (c)   Basis of Accounting
            The Schedules are recorded using the accrual basis of accounting in accordance with U.S generally
            accepted accounting principles.

      (d)   Fund Balance with Treasury
            The Trust Funds do not maintain cash in commercial bank accounts. Treasury processes cash
            receipts and disbursements. Fund Balance with Treasury represents net revenue, disposition of
            revenue, and investment activity. Fund balance with Treasury is reported based on the balance
            reported by Treasury’s Financial Management Service (FMS) in the Government-wide Accounting
            and Reporting Modernization Project (GWA) Account Statement and reconciling transactions
            identified and recorded by TFMB.

      (e)   Interest Receivables
            Interest receivables are calculated and reported by TFMB based on the investment terms received
            and recorded by TFMB from BPD’s Federal Investments Branch (FIB) in the investment
            confirmations and monthly statements of account.

                                                        10                                          (Continued)
                      U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                           Notes to the Schedules of Selected Trust Funds
                                         September 30, 2007



(f)   Other Receivables and Other Payables
      Other receivables and other payables are reported based on amounts received and recorded by TFMB
      from the program agencies responsible for the respective trust fund activity.

(g)   Investments, Net
      Pursuant to authorizing legislation, the Secretary of the Treasury shall invest, at the direction of the
      program agencies, such portion of the trust fund balances as is not, in the judgment of the program
      agencies, necessary to meet current withdrawals. Such investments shall be in non-marketable par
      value or non-marketable market-based securities as authorized by legislation. Par value securities are
      special issue bonds or certificates of indebtedness that bear interest determined by legislation or the
      Treasury. Market-based securities are Treasury securities that are not traded on any securities
      exchange, but mirror the prices of marketable securities with similar terms. Both par value and
      market-based securities are issued and redeemed by FIB.

      TFMB follows Treasury fiscal investment policy guidelines. TFMB determines the term of the
      securities purchased based on direction provided by the program agencies. The securities are
      acquired and held in the name of the Secretary of the Treasury for the trust funds. The interest on and
      proceeds from the sale or redemption of any security held for the trust funds are credited to the
      appropriate trust fund. Investments are selected for liquidation based on the following order: earliest
      maturity date, lowest prevailing interest rate, and first security in first security out.

      Investments, net are calculated and reported at net cost based on the cost and premium/discount
      amounts reported to TFMB in the investment confirmations and monthly statements of account
      received from FIB. The market value of investments is calculated and reported by TFMB using the
      recorded investment cost and the market rates published in the September 28, 2007 Treasury Quote
      file (the last work day of the fiscal year) and unrealized gains and losses are calculated and reported
      by TFMB as the difference between the market value and the investments, net.

(h)   Available and Other Program Agency Equity
      Program agency equity is calculated and reported by TFMB based on the assets of the trust fund.
      Program agency equity consists of available and other program agency equity.

      Available program agency equity represents the amount of program agency equity that may be
      transferred as of September 30, 2007 to the program agencies at the request of the program agencies.
      Available program agency equity is reported based on amounts received and recorded by TFMB
      from the program agencies responsible for the respective trust fund activity.

      The remaining balance of program agency equity is reported as other program agency equity. Other
      program agency equity is calculated and reported by TFMB as the difference between the assets of
      the trust fund and the available program agency equity received and recorded by TFMB from the
      program agencies responsible for the respective trust fund activity.




                                                  11                                             (Continued)
                      U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                           Notes to the Schedules of Selected Trust Funds
                                         September 30, 2007



(i)   Interest Revenue
      Interest revenue is reported based on the amounts received and recorded by TFMB from FIB in the
      monthly statements of account and accrued interest and amortization calculated by TFMB.
      Amortization of any premiums and discounts on investments is calculated and reported by TFMB
      based on the investment terms reported to TFMB by FIB using the straight-line method for
      investments with a term equal to or less than one year and using the level yield method which
      approximates the interest method for investments with a term of greater than one year.

(j)   Revenues
      Pursuant to authorizing legislation, revenue activity recorded in the trust funds consists primarily of
      interest, penalties, fines, administrative fees, transfers in from program agencies, tax revenues, tax
      adjustments, tax refunds, premiums, cost recoveries, and other income, which are transferred from
      the General Fund of the Treasury or from program agencies to the Trust Funds.

      Penalties, fines, administrative fees, transfers in from program agencies, premiums, cost recoveries,
      and other income are reported based on the amounts received and recorded by TFMB from FMS and
      the program agencies responsible for the respective trust fund activity.

      Tax revenues, tax adjustments, tax refunds, and other income – tax revenue transfers are reported
      based on the amounts received and recorded by TFMB from the OTA, IRS and/or FMS. OTA
      estimates the tax revenues each month based on projected tax receipts and provides the estimates to
      FMS. FMS transfers the amount of estimated taxes to the trust fund accounts. The IRS or program
      agencies generally certify the tax revenues two quarters after the taxes are estimated (i.e., 1st quarter
      estimate is certified in the 3rd quarter) and provide this certification to FMS. FMS calculates the tax
      adjustment as the difference between the taxes estimated by OTA and taxes certified by the
      IRS/program agencies and adjusts the trust fund accounts accordingly. FMS reports the tax
      adjustments to TFMB. As a result of the timing of the certification, the statement of activity includes
      certified tax revenues (i.e. actual tax revenues) for the first two quarters of the fiscal year and
      estimated tax revenues for the second two quarters of the fiscal year.

(k)   Transfers to Program Agencies and Other Transfers
      Dispositions from the Trust Funds are made in accordance with the authorizing legislation to the
      program agencies, which are responsible for the ultimate disposition of such funds, to cover program
      administration and related costs as defined by law. Transfers to program agencies and other transfers
      are calculated and reported based on the disbursement request amounts received and recorded by
      TFMB from the program agencies responsible for the respective trust fund activity and the
      disbursement amounts returned and recorded by TFMB from the program agencies responsible for
      the respective trust fund activity.

(l)   Reimbursements to Treasury Bureaus and the General Fund
      In the case of certain trust funds, BPD and Financial Management Service (FMS) are authorized by
      law to receive direct reimbursement from the trust funds for certain administrative expenses. Also,
      the Secretary of the Treasury is directed by law to charge trust funds to reimburse the General Fund

                                                  12                                              (Continued)
                             U.S. DEPARTMENT OF THE TREASURY
              BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                Notes to the Schedules of Selected Trust Funds
                                              September 30, 2007



            for administrative expenses incurred by other Treasury bureaus in performing activities related to
            administering the trust funds. These reimbursement amounts are determined by Treasury based on its
            assessment of the value of the services provided. Reimbursements to Treasury bureaus and the
            General Fund are reported based on the disbursement request amounts received and recorded by
            TFMB from various Treasury bureaus, including BPD and FMS.

(2)   Investments, Net
      Federal Supplementary Medical Insurance Trust Fund
      Investments at September 30, 2007, are non-marketable, par value intra governmental securities with a cost
      of $39,248,013,000.

      Federal Hospital Insurance Trust Fund
      Investments at September 30, 2007, are non-marketable, par value intra governmental securities with a cost
      of $319,377,370,000.

      Highway Trust Fund
      Investments at September 30, 2007, are non-marketable, par value intra governmental securities with a cost
      of $12,204,544,000. In accordance with Public Law 105-277, 112 Statute 2681, investments held by the
      Trust Fund ceased earning interest after September 30, 1998. However, the fund can earn interest pursuant
      to the Cash Management Improvement Act.

      Airport and Airway Trust Fund
      Investments at September 30, 2007, are non-marketable, par value intra governmental securities with a cost
      of $7,930,943,000.

      Hazardous Substance Superfund Trust Fund
      Investments at September 30, 2007, are non-marketable, market-based intra governmental securities as
      follows:
                                                                      Net
                                                                 unamortized
                                                                   premium              Net         Market
                                                    Cost          (discount)        investments     value
      One-day certificates                   $     264,705,993        N/A          264,705,993      264,705,993
      Bills and notes                            2,478,803,000     (4,453,750)   2,474,349,250    2,479,165,524
                    Total                    $ 2,743,508,993       (4,453,750)   2,739,055,243    2,743,871,517


      The net unrealized gain on investments is $4,816,274 at September 30, 2007.




                                                       13                                           (Continued)
                       U.S. DEPARTMENT OF THE TREASURY
        BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                       September 30, 2007



Leaking Underground Storage Tank Trust Fund
The investments at September 30, 2007, are non-marketable, market-based intra governmental securities as
follows:
                                                               Net
                                                          unamortized
                                                            premium             Net             Market
                                              Cost         (discount)       investments         value
One-day certificates                  $     152,290,236       N/A             152,290,236      152,290,236
Bills and notes                           2,784,522,000      33,936,961     2,818,458,961    2,849,144,094
              Total                   $ 2,936,812,236        33,936,961     2,970,749,197    3,001,434,330


The net unrealized gain on investments is $30,685,133 at September 30, 2007.

Oil Spill Liability Trust Fund
The investments at September 30, 2007, are non-marketable, market-based intra governmental securities as
follows:

                                                               Net
                                                          unamortized
                                                            premium             Net             Market
                                              Cost         (discount)       investments         value
One-day certificates                  $    212,628,488         N/A             212,628,488     212,628,488
Bills and notes                            707,412,000      (2,374,416)        705,037,584     705,397,869
              Total                   $    920,040,488      (2,374,416)        917,666,072     918,026,357


The net unrealized gain on investments is $360,285 at September 30, 2007.

Harbor Maintenance Trust Fund
The investments at September 30, 2007, are non-marketable, market-based intra governmental securities as
follows:
                                                               Net
                                                          unamortized
                                                            premium             Net            Market
                                             Cost          (discount)       investments        value
One-day certificates                  $     422,246,124        N/A            422,246,124      422,246,124
Bills and notes                           3,292,858,000     (7,335,730)     3,285,522,270    3,314,354,338
              Total                   $ 3,715,104,124       (7,335,730)     3,707,768,394    3,736,600,462


                                                14                                             (Continued)
                             U.S. DEPARTMENT OF THE TREASURY
              BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                   Notes to the Schedules of Selected Trust Funds 

                                                September 30, 2007 




      The net unrealized gain on investments is $28,832,068 at September 30, 2007.
      Inland Waterways Trust Fund
      The investments at September 30, 2007, are non-marketable, market-based intra governmental securities as
      follows:
                                                                        Net
                                                                   unamortized
                                                                     premium              Net        Market
                                                      Cost          (discount)        investments    value
      One-day certificates                      $   129,239,243         N/A            129,239,243   129,239,243
      Bills and notes                                76,001,000      (1,143,889)        74,857,111    74,868,289
                    Total                       $   205,240,243      (1,143,889)       204,096,354   204,107,532


      The net unrealized gain on investments is $11,178 at September 30, 2007.
      South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
      The investments at September 30, 2007, are non-marketable, market-based intra governmental securities as
      follows:

                                                                        Net
                                                                   unamortized
                                                                     premium              Net        Market
                                                      Cost          (discount)        investments     value
      Bills and notes                           $   102,808,202        (327,361)       102,480,841   102,400,818


      The net unrealized loss on investments is $80,023 at September 30, 2007.

(3)   Change in Program Agency Equity
      Federal Supplementary Medical Insurance Trust Fund
      Change in program agency equity for the year ended September 30, 2007, is:

                             Balance, beginning of year                    $   33,527,649,945
                             Increase in balance                               14,829,321,151
                             Balance, end of year                          $   48,356,971,096




                                                          15                                         (Continued)
                      U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                       September 30, 2007



Federal Hospital Insurance Trust Fund
Change in the program agency equity for the year ended September 30, 2007, is:

                   Balance, beginning of year                    $ 306,582,148,357

                   Increase in balance                               8,893,600,987

                   Balance, end of year                          $ 315,475,749,344



Highway Trust Fund
Change in program agency equity for the year ended September 30, 2007, is:

                   Balance, beginning of year                    $   13,388,011,878

                   Increase in balance                                1,363,316,611

                   Balance, end of year                          $   14,751,328,489



The program agency equity available as of September 30, 2007 is $14,751,328,489. However, Congress
has authorized appropriations in excess of current available trust fund assets that amounts to
$3,628,503,594 after considering amounts already transferred to the program agency.

Airport and Airway Trust Fund

Change in program agency equity for the year ended September 30, 2007, is:

                   Balance, beginning of year                    $    8,612,996,812

                   Increase in balance                                  109,355,406

                   Balance, end of year                          $    8,722,352,218



Hazardous Substance Superfund Trust Fund
Change in program agency equity for the year ended September 30, 2007, is:
                   Balance, beginning of year                   $     2,628,276,757

                   Increase in balance                                  125,111,691

                   Balance, end of year                         $     2,753,388,448





                                                16                                     (Continued)
                      U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                       September 30, 2007



Leaking Underground Storage Tank Trust Fund
Change in program agency equity for the year ended September 30, 2007, is:

                   Balance, beginning of year                    $    2,750,496,316
                   Increase in balance                                  263,573,298
                   Balance, end of year                          $    3,014,069,614


Oil Spill Liability Trust Fund
Change in program agency equity for the year ended September 30, 2007, is:

                   Balance, beginning of year                    $         604,400,399
                   Increase in balance                                     338,300,010
                   Balance, end of year                          $         942,700,409


Harbor Maintenance Trust Fund
Change in program agency equity for the year ended September 30, 2007, is:

                   Balance, beginning of year                    $    3,305,748,757
                   Increase in balance                                  505,889,740
                   Balance, end of year                          $    3,811,638,497


Inland Waterways Trust Fund
Change in program agency equity for the year ended September 30, 2007, is:

                   Balance, beginning of year                    $      267,671,726
                   Decrease in balance                                 (58,288,724)
                   Balance, end of year                          $         209,383,002


South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
Change in program agency equity for the year ended September 30, 2007, is:

                   Balance, beginning of year                    $          89,338,783
                   Increase in balance                                      14,153,756
                   Balance, end of year                          $         103,492,539



                                                17                                       (Continued)
                            U.S. DEPARTMENT OF THE TREASURY
             BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                 Notes to the Schedules of Selected Trust Funds
                                               September 30, 2007



      The Omnibus Consolidated and Emergency Supplemental Appropriations Act dated October 21, 1998
      (Public Law 105-277, DIVISION C, Title VI, Section 603) established this trust fund in 1999. This Act
      states that the Secretary of the Treasury may not transfer or withdraw any amount deposited in the trust
      fund until the aggregate amount is equal to at least $108,000,000. As such, the program agency equity
      balance as of September 30, 2007 is not available to the program agency.

(4)   Other Income
      South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
      The $10,000,000 of other income for the year ended September 30, 2007 represents the amounts deposited
      into the trust fund by the Secretary of the Treasury in accordance with the trust fund’s enabling legislation
      (Public Law 105-277, DIVISION C, Title VI, Section 603).

(5)   Other Income – Tax Revenue Transfers
      Airport and Airway Trust Fund and Highway Trust Fund

      Other income – tax revenue transfers of $223,307,280 represents the transfer of amounts from the Highway
      Trust Fund to the Airport and Airway Trust Fund. During fiscal year 2006, the program agency provided
      TFMB excise tax collections for diesel fuel to be recorded in the Highway Trust Fund and TFMB recorded
      and reported such amounts in the Highway Trust Fund. In fiscal year 2007, the OTA, IRS and/or FMS
      requested TFMB to transfer amounts from the Highway Trust Fund to the Airport and Airway Trust Fund
      and TFMB reported this as other income – tax revenue transfers on the fiscal year 2007 schedule of
      activity of selected trust funds.

(6)   Other Payables, Receivables, and Transfers
      Federal Supplementary Medical Insurance Trust Fund and Federal Hospital Insurance Trust Fund

      From May 2005 to August 2007, the program agency requested transfers from Federal Supplementary
      Medical Insurance Trust Fund for hospice benefits and TFMB recorded and reported such transfers in the
      Federal Supplementary Medical Insurance Trust Fund. In fiscal year 2007, the program agency determined
      that it should have requested the transfers for hospice benefits from the Federal Hospital Insurance Trust
      Fund and requested that TFMB transfer $8,483,565,673 from the Federal Supplementary Medical
      Insurance Trust Fund to the Federal Hospital Insurance Trust Fund as of September 30, 2007. TFMB
      reported the $8,483,565,673 as other transfers on the schedule of activity, and as an other payable in the
      Federal Hospital Insurance Trust Fund and an other receivable in the Federal Supplementary Medical
      Insurance Trust Fund on the schedule of assets and liabilities.

(7)   Related Parties
      TFMB, on behalf of the Secretary of the Treasury, compiles amounts deposited into the trust funds, invests
      receipts in Treasury securities, redeems securities and transfers funds to the program agencies, maintains
      accounting records for receipts and disbursements of the trust funds, and reports trust fund financial
      activity to the program agencies and other interested parties. The OTA, IRS, and/or FMS determine the
      amounts to be deposited in the trust funds. The program agencies determine the disposition of the trust
      fund balances.

                                                        18

